OREGON COMMUNITY CREDIT UNION VISA
CREDIT CARD ACCOUNT AGREEMENT
This Visa® Credit Card Account Agreement (“Agreement”) and the Account Disclosures (“Account Disclosure”) given to you
when you opened your Card account (“Account”) will govern your Visa Credit Card and Account issued by Oregon
Community Credit Union (“Credit Union”). In this Agreement, the words “you,” “your,” “yours,” “applicant,” and “Borrower”
mean any person who signs the application for this Account, any joint obligor, guarantor, authorized user, or the person
whose name is embossed on the Card. The words “we,” “us,” “our,” and “Credit Union” mean Oregon Community Credit
Union. The word “Card” means any one or more credit cards issued under this Account. If you sign an application for this
Account or sign or use any Card or PIN, or allow others to use the Card or PIN, you and they will have accepted this
Agreement just as if you and they signed it, and you and they, jointly and severally, will be bound by the following
terms and conditions which will govern this Account.
1. YOU PROMISE TO PAY. You promise to pay us all amounts, plus any Interest Charges, which arise from use of the Card
or Account by you or any other person, and to be jointly and severally liable with such a person, unless such other person
does not have actual, implied, or apparent authority for such use, and you received no benefit from the use. You promise to
pay us either by direct payment or by automatic transfers from shares.
2. ACCOUNT ACCESS.
a. Purchases, Cash Advances, and Balance Transfers. You must sign the Card to use it. Once you have signed the
Card, you can use it to buy or lease goods, services, or insurance wherever the Card is honored, up to the full amount of
your Credit Line. You may use your Account to get cash advances from us. You may also use your Card to get a cash
advance from participating financial institutions and to access your line of credit at automatic teller machines (“ATMs”)
within the VISA network or any other ATMs.
b.VISA Convenience Checks. If we approve, you may obtain advances under your Account by writing preprinted VISA
convenience loan checks that we supply to you. Your use of loan checks will be shown either as a purchase, cash
advance, or balance transfer on your monthly statement. We may not honor your loan check if: your check is post-dated;
payment of the check would exceed your Credit Line; a check is signed by a person without authorized access; the
amount of the check is less than the minimum required amount; your Account has been terminated or suspended, or any
drafts have been reported lost or stolen. You may stop payment on a loan check if you provide us with the exact
information describing the check. If you give us incorrect information, we will not be responsible for failing to stop
payment. You understand there may be a charge for each stop payment order requested. Our liability for a wrongful
dishonor is limited to your actual charges; however, a dishonor for the reasons stated above is not a wrongful dishonor.
Only the person whose name is printed on a convenience check may sign it. All convenience checks must be written in
U.S. dollars. We will not certify a convenience check. You may write these checks for any amount providing your total
outstanding balance does not exceed your available Credit Line and your credit card remains in good standing. We are
entitled to return it unpaid if there is not enough available credit on your Account to pay it, if you are in default under this
Agreement, if your card or convenience checks have been reported lost or stolen, or if the convenience check is postdated. A VISA convenience check may not be used to make a payment on your VISA credit card account or any other
loan account you have with us. The Credit Union shall have no liability for any convenience check returned in excess of
your Credit Line.
3. CREDIT LINE. If we approve your application, this Agreement will constitute a revolving line of credit for an amount which
will be the Credit Line under your Account. We will advise you of the amount of your Credit Line. That amount will be the
maximum amount you may have outstanding at any one time. You agree not to attempt to obtain more credit than the
amount of your Credit Line. However, if you temporarily exceed your Credit Line, you agree to repay the excess
immediately, even if we have not yet billed you. Obtaining such credit does not increase your Credit Line. We retain the right
to increase or decrease your Credit Line at any time. Any increase or reduction in the amount of your Credit Line will be
shown on your monthly statement or by separate notice together with any changes in the applicable Minimum Monthly
Payments. Your eligibility for this Credit Line is determined by our loan policy and may be terminated at our sole discretion,
without demand or notice. You may close your Credit Line at any time by notifying us in writing and returning all Cards cut in
half. If you terminate this Agreement or if we terminate or suspend your credit privileges, the provisions of this Agreement
and your liability hereunder shall otherwise remain in full force and effect until you have paid us all sums due us under this
Agreement and returned all Cards.
4. MINIMUM MONTHLY PAYMENT. We will mail you a statement every month if your Account has a balance. You agree
that you will pay each month not less than the minimum monthly payment on or before the payment due date. The minimum
monthly payment will be the largest of: (a) $30, or (b) 3.0% of your outstanding balance shown on your statement (“New
Balance”), or (c) 1.0% of the New Balance plus (i) any unpaid Interest Charges and (ii) any unpaid fees or other finance
charges. If your outstanding balance is less than $30, you agree to pay the balance in full. In addition to the minimum
monthly payment, you agree to pay any “Over limit Amount” and any amount past due shown on your statement each month
by the due date shown on your Statement. You may pay in full for all your purchases and cash advances each month, or you
may repay in monthly installments. We can accept late payments or partial payments, or checks, drafts, or money orders
marked “payment in full” without prejudice to our rights under this Agreement, which are hereby explicitly reserved. A credit
posting from a merchant or reversal of fees does not constitute a minimum payment. The minimum monthly payment may be
Page 1 - VISA CREDIT CARD ACCOUNT AGREEMENT AND DISCLOSURE
Revised 08/1/2017 ©2017 Farleigh Wada Witt

allocated at the Credit Union’s discretion to pay off lower rate balances, such as promotional offers, before higher rate
balances, such as cash advances or purchases. Payments in excess of the minimum monthly payment will be allocated first
to higher rate balances, as applicable. From time to time, we may allow you to skip your minimum monthly payment due. If
you choose to skip that payment, Interest Charges will continue to accrue in accordance with this Agreement. Payments
received at: Oregon Community Credit Union, Attn: Card Services, P.O. Box 84063, Columbus, GA 31908-4063, on or
before 5:00 PM Pacific Time on any business day will be credited to your Account as of that date; payments received by mail
at that address after 5:00 PM Pacific Time or on a weekend will be posted to your Account as of the next business day.
5. SECURITY INTEREST. By signing your application, to secure your Account, you grant us a purchase money security
interest under the Oregon Uniform Commercial Code in any goods you purchase through your Account. If you default, we
will have the right to recover any of these goods that have not been paid for through application of your payments in the
manner described in Section 4. In addition, you grant us a security interest in all your shares and deposits, present and
future, and all accounts (except Individual Retirement Accounts and Keogh Accounts) with the Credit Union to secure your
Account and agree, upon default, the Credit Union may apply all that is secured to pay any amounts due under this
Agreement, without further notice to you. You further agree that collateral securing other loans with the Credit Union (except
loans secured by real property) also secures this Account.
6. PERIODIC STATEMENTS. Each month, if your outstanding balance exceeds $1, we will send you a statement showing
new purchases, cash advances, payments, and credits made to your Account during the billing period, your Previous
Balance, your “Total New Balance,” any Interest Charge, and any other charges. Your statement also will identify the
remaining Credit Line available and the Minimum Monthly Payment you must make for that billing period and the date it is
due. For statement verification purposes, you agree to retain copies of transaction slips resulting from each purchase, each
advance, and other transaction on your Account. Unless you notify us of a billing error as described below, you accept your
monthly statement as an accurate statement of your Account with us.
7. VISA TRANSACTION ALERTS. If you are eligible, you may enroll in the Visa Purchase Alerts service by signing up at a
Visa website. Your use of the Visa Purchase Alerts service will be governed by any terms and conditions provided by Visa at
the time of your enrollment.
8. CIRCUMSTANCES UNDER WHICH AN INTEREST CHARGE WILL BE IMPOSED. The total outstanding balance of
purchases, balance transfers, and cash advances in the Account on the closing date of a billing period, including any
Interest Charge, will be shown on the Periodic Statement for that billing period as the “New Balance.”
a. Cash Advances and Balance Transfers. We begin charging an Interest Charge on cash advances and balance
transfers from the date of each transaction. There is no time period within which to pay to avoid a periodic Interest
Charge on cash advances or balance transfers.
b. Purchases. Your due date is at least 25 days after the close of each billing period. An Interest Charge will be imposed
on the portion of purchases included in the New Balance that is not paid by the due date. This “grace period” allows you
to avoid an Interest Charge on purchases for a billing period. However, if you do not pay the New Balance for purchases
within the grace period, your Interest Charge will accrue on any unpaid purchase transactions from the first day of the
billing period in which the payment is due.
9. METHOD USED TO DETERMINE THE BALANCE ON WHICH THE INTEREST CHARGE MAY BE COMPUTED AND
AMOUNT OF INTEREST CHARGE. The Credit Union figures the Interest Charge on your Account by multiplying the
“Average Daily Balance” of purchases, balance transfers, and cash advances for your Account (including current
transactions) by the Daily Periodic Rate, and then we multiply the result by the number of days in the billing period. To get
the “Average Daily Balance” we take the beginning balance of your Account each day, add any new purchases or cash
advances, and subtract any payments or credits, unpaid Interest Charge and unpaid fees. This gives us the daily balance. Then, we add up all the
daily balances for the billing period and divide the total by the number of days in the billing period. This gives us the “Average Daily Balance.” To get the “Daily
Periodic Rate,” we divide the Annual Percentage Rate in effect for the billing period by 365.
10. PERIODIC RATE AND CORRESPONDING ANNUAL PERCENTAGE RATE.
a. Standard Rates. The Periodic Rate and corresponding Annual Percentage Rate(s) used to compute the Interest Charge are variable and based on
the value of an index. The index in effect for each billing period shall be the highest “Prime Rate” of interest appearing in The Wall Street Journal
published on the last business day of the month preceding the first day of such billing period or, if The Wall Street Journal is not published on
such date, the next day on with such Prime Rate is published. To determine the Annual Percentage Rate, we add a margin to the index. The amount
of the margin depends on the type of account, your credit profile, and other factors we deem appropriate. The margin applicable to your account is
provided to you in your Account Disclosure. The Annual Percentage Rate is divided by 365 to obtain the Periodic Rate. The rate can change
monthly effective the first day of the billing cycle. Any increase or decrease in the Annual Percentage Rate will affect the number of monthly
payments you may have to make. If the Wall Street Journal ceases publication or ceases to publish the Prime Rate, we reserve the right to use the
Prime Rate published in any other newspaper of general circulation, or we may substitute a similar reference at our sole discretion.
b. Introductory Rates. At our discretion, we may offer you an introductory or promotional Annual Percentage Rate for your Account. Any
introductory or promotional Annual Percentage Rate will be subject to the terms of the offer and this Agreement. We will provide you with information
on the offer, including the time period the introductory or promotional Annual Percentage Rate is in effect in the Account Disclosure or in other
materials that we send to you about the offer after you receive your Credit Card.
c. Military Lending Act. Federal law provides important protections to members of the armed forces and their dependents relating to
extensions of consumer credit. In general, the cost of consumer credit to a member of the armed forces or their dependents may not exceed an
annual percentage rate of 36%. This rate must include, as applicable to the particular credit transaction or account, the costs associated with credit
insurance premiums, fees for ancillary products sold in connection with the credit transaction, any application fee charged (other than certain
Page 2 - VISA CREDIT CARD ACCOUNT AGREEMENT AND DISCLOSURE
Revised 08/1/2017 ©2017 Farleigh Wada Witt

application fees for specified credit transactions or accounts), and any participation fee charged (other than certain participation fees for a credit card
account). If you would like to hear more about your rights under the Military Lending Act, please contact us at 844.333.6247.
11. CONDITIONS UNDER WHICH OTHER CHARGES MAY BE IMPOSED.
You agree to pay the following fees and charges on your Account.
a. Late Fee. If we do not receive your minimum payment on the due date, you agree to pay a late fee up to $25.
b. Copying Fee. We may charge you $10 for each VISA draft copy you request for your Account. If the request relates to a billing error and we
determine that a billing error was made, any photocopying charges will be refunded.
c. Returned Item Fee. If any check or draft we receive from you as payment for any amount you owe to us is returned to us unpaid, you agree
to pay a returned item fee of up to $25.
d. ATM Fee. If you use an ATM to obtain a cash advance and the ATM is not operated by us, you may be charged an ATM surcharge by
the ATM operator or an ATM network utilized for such a transaction. The ATM surcharge may be charged to your Account if you complete the
transaction.
e. Cash Advance Fee. When you obtain a cash advance, you agree to pay a cash advance fee of either $10 or 3% of the amount of each cash
advance, whichever is greater, for each cash advance obtained. This cash advance fee is in addition to any ATM Fees that may apply.
f. Balance Transfer Fee. When you obtain a balance transfer, you agree to pay a balance transfer fee of either $10 or 3% of the amount of
each balance transfer amount, whichever is greater.
g. Rush Card Fee. When you request that we send you a new or replacement Card on an expedited basis, you agree to pay a rush card fee of
$30.
h. Attorney’s Fees and Costs. If you default on any part of this Agreement, you agree to pay us all costs to collect your Account, including
court costs and reasonable attorney fees whether or not there is a lawsuit, and fees on any appeal and fees for bankruptcy proceedings, appeals, and
any post-judgment collection services, if applicable. These fees and costs may be added to your Account balance and will bear interest at the Annual
Percentage Rate in effect at that time.
12. CONDITIONS OF CARD USE. The use of your Card and Account are subject to the following conditions:
a. Use. Your Card and Account may be used only for valid and lawful purposes. You may not use your Card (i) to make Purchases or obtain Cash
Advances for any illegal transaction, or (ii) for any internet or online gambling transactions. If you use your Card for any illegal or prohibited transaction,
this Agreement also applies to such transaction and you agree to pay any and all amounts related to such transaction pursuant to the terms of this
Agreement. We may, at our sole discretion and without warning, restrict the use of or terminate your Card if we notice excessive use of your Card or
other suspicious activities or if we reasonably believe the Card is or has been used for one or more illegal or prohibited transactions.
b.Ownership of Cards. Any Card or other credit instrument or device which we supply to you is our property and must be returned to us, or to
any person whom we authorize to act as our agent, or to any person who is authorized to honor the Card, immediately according to instructions. The
Card may be repossessed at any time in our sole discretion without demand or notice. You cannot transfer your Card or Account to another
person.
c. Honoring the Card. We may decline to honor any transaction for any reason. Neither we nor merchants authorized to honor the Card will be
responsible for the failure or refusal to honor the Card or any other credit instrument or device we supply to you. If a merchant agrees to give you a
refund or adjustment, you agree to accept a credit to your Account in lieu of a cash refund.
d. Currency Conversion/International Transaction Fee. Purchases and cash advances made in foreign countries will be billed to you.
in U.S. dollars. The currency conversion rate for international transactions as established by VISA International, Inc. is a
rate selected by VISA from the range of rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate VISA itself receives, or the government- mandated rate in effect for
the applicable central processing date.
e.Notices and Payments. All notices will be sent to your address as shown in the application. You agree to advise us
promptly if you change your mailing address. All payments should be mailed to us at the remittance address shown on
your monthly statements. Payments received at that address will be credited to your Account as of the date received.
Written notices and inquiries to us must be sent to:
Oregon Community Credit Union Attn: Card Services
P.O. Box 84063
Columbus, GA 31908-4063
855-755-6423
f. Personal Identification Number. If we issue you a Personal Identification Number (“PIN”) for use with your Card in
accessing your line of credit at ATMs, these numbers are issued to you for your security purposes. These numbers are
confidential and should not be disclosed to third parties. You are responsible for safekeeping your PIN. You agree not to
disclose or otherwise make available your PIN to anyone not authorized to sign on your Account. To keep your Account
secure, please do not write your PIN on your Card or keep it in the same place as your Card.
13. LOAN PROTECTION. Loan Protection coverage is not required for any extension of credit under this Agreement.
However, you may purchase any loan protection available through us and have the monthly fee added to your outstanding
balance as purchases. If you elect to do so, we will give you the necessary disclosures and documents separately.
14. DEFAULT. You will be in default under this Agreement if any of the following occur: (a) Any Minimum Monthly Payment is
not made when due; (b) You become insolvent, bankrupt, or you die; (c) You violate any part of this Agreement, or any other
agreement with us; or (d) If we reasonably deem ourselves insecure with respect to your Account. Upon default, we may
declare the entire unpaid balance immediately due and payable, and you agree to pay that amount plus any attorney’s fees
and costs we incur, including fees and costs in any appeal or bankruptcy proceeding. We can delay enforcing any right under
Page 3 - VISA CREDIT CARD ACCOUNT AGREEMENT AND DISCLOSURE
Revised 08/1/2017 ©2017 Farleigh Wada Witt

this Agreement without losing that right or any other right. We will notify you in writing of any such action as soon as practical
if it occurs.
15. SUSPENSION OF EFT ACCESS OR SERVICE. If you are in breach of this Agreement or any other loan, account, or
service agreement with the Credit Union or we suspect fraudulent activity on your account, the Credit Union may without prior
notice restrict access to your accounts or suspend your electronic services or access devices, including ATM or debit cards
and online or mobile banking services. Such restrictions may continue until you cure any breach condition or any fraud
condition is resolved.
16. GOVERNING LAW. This Agreement will not take effect until it is approved by us. This Agreement shall be governed by
the laws of the State of Oregon.
17. SEVERABILITY. If any provision of this Agreement is held invalid, the remaining provisions that are severable shall
remain in effect.
18. LOSS OR THEFT OF CARD. You agree to notify us immediately of the loss, or the theft, or the use without your
permission, of any Card or other credit instrument or device which we supply to you. You may be liable for the unauthorized
use of your card. You will not be liable for unauthorized use which occurs after you notify: Oregon Community Credit Union,
Attn: Card Services, P.O. Box 84032, Columbus, GA 31908-4032, Telephone: 855-755-6423, orally or in writing of loss,
theft, or possible unauthorized use. In any case, your liability shall not exceed $50.
19. CREDIT INFORMATION/FINANCIAL STATEMENTS. You authorize us to release information to others (e.g., credit
bureaus, merchants, and other financial institutions) regarding the status and history of your Credit Line. You agree to
provide us, at any time we deem necessary, with a current financial statement and/or updated credit information upon
request. We may investigate your credit directly or through a credit reporting agency.
20. AMENDMENTS. We reserve the right to change any terms or conditions of this Agreement at any time, to the extent
permitted by applicable law. We will notify you of the changes to this Agreement as required by law.
21. BILLING ERRORS NOTICE, YOUR CREDIT CARD BILLING RIGHTS. Keep this document for future use. This notice
tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What to Do If You Find a Mistake on Your Statement. If you think there is an error on your statement, write to us at: Oregon
Community Credit Union, Attn: Card Services, P.O. Box 84032, Columbus, GA 31908- 4032. In your letter, give us the
following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe
it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do, we are not required to investigate any
potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter. When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is
correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that
amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and
fees. We will send you a statement of the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still
refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We
Page 4 - VISA CREDIT CARD ACCOUNT AGREEMENT AND DISCLOSURE
Revised 08/1/2017 ©2017 Farleigh Wada Witt

must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know when
the matter has been settled between us. If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied with Your Credit Card Purchases. If you are dissatisfied with the goods or services that
you have purchased with your credit card, and you have tried in good faith to correct the problem with the merchant, you
may have the right not to pay the remaining amount due on the purchase. To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the above address.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we
will tell you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.
22. ACKNOWLEDGMENT. You understand and agree to the terms and conditions in this Agreement and the Fair Credit
Billing Notice. You acknowledge that you have received a copy of this Agreement, the Account Disclosure, and the Fair
Credit Billing Notice. This Agreement is a final expression of the agreement between you and the Credit Union.

Page 5 - VISA CREDIT CARD ACCOUNT AGREEMENT AND DISCLOSURE
Revised 08/1/2017 ©2017 Farleigh Wada Witt

